—
I

(OCKLE

2311 Douglas Street * E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B onaas contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1375

KRISTINA BOX, COMMISSIONER,
INDIANA STATE DEPARTMENT OF HEALTH, et al.,
Petitioners,

v.

PLANNED PARENTHOOD GREAT NORTHWEST,
HAWAI'I, ALASKA, INDIANA, KENTUCKY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 6698 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of June, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska z 2 4 /,
RENEE J. GOSS 0. ( edu ‘.
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

41026
